<html>
<title> - KEEPING A STRONG FEDERAL LAW ENFORCEMENT WORK FORCE</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
        KEEPING A STRONG FEDERAL LAW ENFORCEMENT WORK FORCE
=======================================================================



                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2001

                               __________

                           Serial No. 107-104

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform





                       U. S. GOVERNMENT PRINTING OFFICE
81-781                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWSKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
          Christopher Donesa, Staff Director and Chief Counsel
              Nicholas Coleman, Professional Staff Member
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 17, 2001.................................     1
Statement of:
    Mead, Gary E., Assistant Director, Business Services, U.S. 
      Marshals Service...........................................    26
    Smith, Robert M., Assistant Commissioner, Office of Human 
      Resources Management, U.S. Customs Service.................    21
    Ziglar, James, Commissioner, U.S. Immigration and 
      Naturalization Service.....................................     6
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    49
    Mead, Gary E., Assistant Director, Business Services, U.S. 
      Marshals Service, prepared statement of....................    28
    Smith, Robert M., Assistant Commissioner, Office of Human 
      Resources Management, U.S. Customs Service, prepared 
      statement of...............................................    23
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Ziglar, James, Commissioner, U.S. Immigration and 
      Naturalization Service, prepared statement of..............    10











          KEEPING A STRONG FEDERAL LAW ENFORCEMENT WORK FORCE

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2001

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1 p.m., in 
room 2247, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Chris Donesa, staff director; Nick Coleman, 
professional staff member; Conn Carroll, clerk; Tony Haywood, 
minority counsel; and Earley Green, minority assistant clerk.
    Mr. Souder. Good afternoon, and thank you all for coming. 
Today our subcommittee will explore the extent to which growth, 
staffing issues and management are likely to impact the ability 
of Federal law enforcement agencies to carry out their missions 
in response to recently increased demands. We invited three of 
the most important Federal law enforcement agencies, the U.S. 
Customs Service, the U.S. Marshals Service and the Immigration 
and Naturalization Service, which also administers the U.S. 
Border Patrol, to testify here today. And we thank Commissioner 
James Ziglar of the INS, Assistant Commissioner Robert Smith of 
Customs, and Assistant Director Gary Mead of the Marshals 
Service for being here today.
    The subcommittee is vitally interested in ensuring the 
welfare of these agencies. We will continue to explore these 
issues and related ones with respect to other Federal law 
enforcement agencies.
    Even before the events of September 11, 2001, the 
subcommittee was exploring ways to assist these key agencies in 
their efforts to protect our Nation's borders, to thwart 
narcotics and other smuggling, to prevent illegal immigration, 
to track down fugitives from justice and to provide security 
for our courts and other Federal installations. The recent 
terrorist attacks have made very clear how important all of 
these missions are. Border security is vital if we are to 
prevent international terrorist organizations from carrying out 
further attacks on our people. Preventing narcotics smuggling 
is vital not simply to keep these poisons out of the hands of 
our young people, but also to cutoff funds for the future 
terrorist networks. And heightened security at Federal 
Government buildings is essential in this new environment.
    This hearing will consider how much each of these agencies 
will need to grow to effectively carry out their missions, 
obstacles and challenges to growth, and to what extent new 
emphasis on preventing terrorism affects the ability of these 
agencies to carry out other vital missions. There is a broad 
consensus in the Congress for expanding the number of Border 
Patrol agents, INS inspectors and Customs inspectors at our 
borders and ports of entry, particularly along the northern 
border. Indeed antiterrorist legislation passed just last week 
would permit the tripling of the number of agents along the 
Canadian border.
    I think every member of this subcommittee would agree that 
expanding the Federal law enforcement work force is essential 
if we are to meet the new challenges; however, rapid expansion 
of the number of agents is often easier said than done. For 
example, in 1996, Congress passed legislation requiring that 
the Attorney General increase the number of Border Patrol 
agents by 1,000 agents per year, every fiscal year through 
2001. Although INS was able to achieve this result at the 
start, hiring dropped off significantly thereafter. INS 
reported that it was unable to recruit enough qualified 
applicants and retain them through the hiring process. In part 
this was due to the very tight labor market that existed at the 
time, in part due to deficiencies in pay and benefits. In 2000, 
INS proposed improving the pay and benefits of Border Patrol 
agents, proposals that have not yet been implemented. Expansion 
of these agencies may therefore require significant 
improvements in the pay scale of Federal officers. Moreover, 
rapid expansion will be less effective if these agencies are 
unable to retain experienced officers they already have since 
new recruits will require significant supervision.
    I believe we should also consider other ways to assist 
these law enforcement agencies, including improving the 
infrastructure at our border crossings, making new technologies 
available to the agencies, and expanding the use of existing 
technologies. As I was talking to Congressman Farr last night, 
one of the things he strongly suggests is that whenever we can 
use technology, as opposed to people, we ought to do that, even 
if the short-term cost is more expensive because of a lot of 
these concerns on hiring.
    These issues are all extremely important and extremely 
urgent, and I look forward to hearing from our witnesses today 
about ways to address them. When Mr. Cummings arrives, we will 
take his opening statement, and I think we will go ahead with 
the proceedings.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First I ask unanimous consent that all 
Members have 5 legislative days to submit written statements 
and questions for the hearing record, and that any answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by Members and the 
witnesses may be included in the hearing record, and that all 
Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    And I would also like the record to show that Mr. Cummings 
and I have really no difference in approach, nor does our 
subcommittee, in tackling a lot of these issues. As I mentioned 
in my opening statement, we are looking at having a series of 
border hearings, and at times we may only have myself present, 
or, when possible, we are having the Members on each of the 
borders at that place present who may not be members of the 
committee. But we are unanimous in trying to get as much detail 
as we can get on what the need of your agencies are and how to 
keep the commerce flowing as well, and we are going to proceed 
ahead with the whole series of things yet this fall and looking 
forward to working with each one of you.
    [The prepared statement of Hon. Mark E. Souder follows:]
    [GRAPHIC] [TIFF OMITTED] 81781.001
    
    [GRAPHIC] [TIFF OMITTED] 81781.002
    
    Mr. Souder. With that, would each of the witnesses please 
rise, raise your right hands, and I will administer the oath. 
As an oversight committee, it is our standard practice to ask 
all witnesses to testify under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
have answered the question in the affirmative.
    The witnesses will now be recognized for opening 
statements, and I would like to say for the record that the 
statement from Customs has not been cleared by OMB, and I 
wanted to show that for the record, and I also just want to say 
that I am understanding that we are in a very delicate area. We 
are trying to work through the budget questions. I have, in 
fact, asked the agency and pushed the agency, as our other 
Members of Congress, to give us information. We all understand 
the difficulties. Mitch Daniels is a close friend of mine, 
being fellow Hoosiers.
    At the same time, right now we need to find out what the 
needs are, and the legislative branch needs to have the input 
from the professionals in the field, too. And we will continue 
to work with OMB, with each of your agencies to try to figure 
out in the end how to resolve these. I am sure Senator Byrd 
will have a few opinions here and there, as will Chairman 
Young. But as an oversight committee, the job of our committee 
is to identify needs that can then go through the authorizing 
and appropriating, and we can't do that if we can't hear what 
the pressures are in the system. So I appreciate each of you 
coming here today.
    Mr. Ziglar, would you begin?

 STATEMENT OF JAMES ZIGLAR, COMMISSIONER, U.S. IMMIGRATION AND 
                     NATURALIZATION SERVICE

    Mr. Ziglar. Thank you, Mr. Chairman, for this opportunity 
to testify today about the challenges that we face at the INS 
in successfully recruiting and retaining high-quality people, 
particularly with respect to the Border Patrol agents and 
immigration inspectors who are the front lines of the country's 
border control.
    I would ask that my full statement be included in the 
record.
    Mr. Souder. So ordered.
    Mr. Ziglar. Mr. Chairman, I realize that the committee 
expected someone from our human resources department to testify 
today; however, I regard the issues before you as so important 
to our ability to do our job that I wanted to appear here 
personally.
    As you know, my background includes management, substantial 
management, in the private sector. The one lesson I have 
learned from my experience is that people make the 
organization, not technology, not anything else. Only people 
make the organization. If we don't treat our people with 
dignity, respect and generosity that they deserve, then our 
efforts are going to fail. And I am here to make that point 
just as strongly as I possibly can.
    Mr. Chairman, the tragic events of September 11th have 
focused a great deal of our attention in our country on our 
immigration policies and our practices. The people of this 
Nation and Members of Congress are very concerned about the 
security of our borders. INS definitely shares your concern. 
Within hours of the attacks, the INS was working closely with 
the FBI to help determine who perpetrated these crimes and to 
bring these people to justice. Within 24 hours of the attacks, 
INS launched something we call Operation Safe Passage and 
deployed several hundred Border Patrol agents to different 
airports, eight different airports in major cities around the 
country, along with the U.S. Marshals and working with the 
Customs Service, to increase the security at the airports to 
help prevent terrorist attacks, and otherwise to restore a 
sense of security to our citizens who are in the traveling 
public.
    INS has dedicated, since September 11th, 1,000 of its 1,977 
special agents to the terrorism investigation, and we have 
developed over 1,500 significant leads ourselves. At America's 
ports of entry, INS inspectors continue to work tirelessly to 
screen arriving visitors while encouraging the flow of 
legitimate commerce and travel. And, Mr. Chairman, you pointed 
that out in your opening statement, and I can tell you that is 
of great concern to us. It is of particular concern to me that, 
coming out of the business world and off of Wall Street, that 
we not destroy our economy by overreaching. What we need to do 
is we need to figure out how we facilitate low-risk travel, pay 
attention to high-risk travel, but not impede the flow of 
commerce.
    I am very proud of the INS's response to this tragedy, and 
I am proud of all of the INS employees who have selflessly 
worked many, many hours to serve their country in this time of 
crisis. Mr. Chairman, there is a great deal expected of the INS 
today, and we are going to rise to that challenge, but just as 
a general wouldn't ride into battle without troops and supplies 
and that sort of thing, the INS can't possibly secure our 
borders without having the personnel and the facilities and the 
infrastructure to do that. We must evaluate how we staff the 
Nation's 6,000 miles of land border and over 300 ports of 
entry.
    Hiring law enforcement personnel is one of the most 
sensitive and important functions of a law enforcement agency. 
Our ability to serve and protect our country is only as good as 
the people we hire. Therefore, we take extraordinary care at 
the INS to ensure that the men and women who are securing our 
borders are the best and the brightest. This year, based solely 
on anticipated action on the President's fiscal year 2000 
budget request, plus attrition, we will have to hire and train 
approximately 3,500 new Border Patrol agents and immigration 
inspectors.
    Today I would like to discuss three challenges that we face 
in the effective recruiting and retention of these people: one, 
hiring procedures; two, pay structure; and three, job 
classifications.
    To maintain and ensure the integrity and professionalism of 
our officers as well as the safety and security of our country, 
the INS pre-employment screening process for law enforcement 
positions is rigorous. Depending on the occupation, applicants 
must pass a written exam, oral boards and a drug test. They 
must meet medical and physical qualifications, and they must 
undergo an extensive security background investigation. Most of 
our officer core positions, including Border Patrol agents and 
immigration inspectors, also require a proficiency in or an 
ability to learn conversational Spanish. I can assure you I 
would not meet the qualification.
    INS has made great strides in meeting these recruitment and 
hiring demands through our streamlined and aggressive 
recruitment program, including the use of uniformed agents and 
inspectors for recruiting. In fact, on a full-time equivalent 
basis, we use about 60 of our Border Patrol agents, to recruit, 
and that has been a very effective method of doing that. INS 
has developed a state-of-the-art recruitment effort 
encompassing extensive use of media and other things. We have 
increased our presence on college and university campuses, 
expanded our participation in professional organizations and 
increased recruitment of military servicemen and women.
    You might be interested to know, Mr. Chairman, that 
approximately 37 percent of our recruits have been out of the 
military. So that is a rich source for us. I think about 30 
percent out of other law enforcement, local law enforcement 
agencies. On occasion we have offered recruitment bonuses to 
new candidates. In fiscal year 1996, we received 23,000 
applications, for example. In fiscal year 2000, we received 
90,000. In short, we have worked diligently to improve, and I 
think we have built the image of the INS as an employer of 
choice.
    In spite of these efforts, though, the number of candidates 
that make it through this rigorous pre-employment requirements 
process is pretty small. In 1999, to fill 2,000 Border Patrol 
agent positions, the INS had to attract 75,000 candidates. To 
fill 1,000 immigration inspectors, it needed to attract 16,000 
candidates. In addition, INS competes with other Federal 
agencies--including some of the folks here at the table--State 
and local governments, and the military for high-quality 
candidates who can meet our requirements.
    With respect to pay structure, as you know, the Federal 
Government has a number of pay structures for Federal law 
enforcement agents. For the INS, the journey grade level that a 
Border Patrol agent or an immigration inspector can currently 
attain without being a supervisor is generally a GS-9. Many 
Border Patrol agents and inspectors spend their entire careers 
topped out at a GS-9. Because our Border Patrol agents and 
inspectors are well trained, they are routinely recruited by 
other Federal law enforcement agencies, most of which have 
higher level journey positions. Therefore, we are working with 
the administration to address this problem.
    I personally strongly support increasing the journey level 
for our inspectors and for the Border Patrol to a GS-11. Many 
of our law enforcement officers are working long hours in 
response to the events of September 11th. Many are not being 
paid for these overtime hours because of a 2-week cap, and all 
are dangerously close to reaching the calendar year overtime 
earning limit of $30,000.
    I appreciate that Congress is addressing the short-term 
problem for 2001 in both the House and Senate versions of the 
antiterrorism legislation. In the long term, Mr. Chairman, the 
Commissioner of INS needs the same flexibility accorded the 
Commissioner of the Customs Service, and that is the authority 
to waive the overtime cap administratively. Our immigration 
inspectors are authorized by statute to, ``enforce the 
immigration laws and regulations of the United States, and any 
other laws or regulations designated by the Attorney General, 
and in the performance of these duties, is empowered to conduct 
investigations; carry firearms; effect warrantless arrests; or 
execute and serve any order, warrant of arrest or search, 
subpoena summons, or other process issued under the authority 
of the United States.'' That is from the statute.
    In the course of their normal duties, inspectors routinely 
encounter, arrest and interrogate persons who violate both the 
criminal laws and immigration laws of the United States. Let me 
give you some statistics that make this point. In the year 
2000, immigration inspectors intercepted 123,548 fraudulent 
documents and persons carrying them. We encountered 155,830 
lookout intercepts from the IBIS systems. We stopped 3,764 
aliens for narcotic smuggling. We intercepted 34,473 
individuals being smuggled through human smuggling rings. We 
intercepted 790 stowaways. We stopped 10,627 criminal aliens 
with offenses involving controlled substances and trafficking. 
And we initiated over 636 criminal prosecutions under the 
Federal laws.
    Mr. Chairman, you can see why we are working with the 
administration to ascertain the appropriate job classification 
for our immigration inspectors. I personally believe that it is 
absolutely necessary to accord our inspectors 6C Federal law 
enforcement status.
    Another factor that affects our ability to carry out our 
law enforcement mission is adequate infrastructure. Any 
increase to INS personnel should also include necessary 
facilities and other infrastructure. While Congress has 
provided funding to expand the infrastructure, it has not kept 
pace with the growth in agents and workload, resulting in 
overcrowded conditions and many older outdated facilities. Many 
facilities that we have have potentially serious safety and 
health deficiencies caused mainly by age and overcrowding. In 
fact, as we stand today, without regard to any additional 
personnel or any additional activities or missions that we 
have, we are at this moment 33 percent behind the curve in 
terms of having our facilities match our personnel and support 
our personnel. The cost of providing these facilities is high, 
but it is important to INS's ability to fulfill its mission.
    In conclusion, there is no doubt that we face immense 
challenges, but I can assure you that the dedicated and 
talented men and women of this agency are up to the challenge.
    Mr. Chairman, I appreciate this opportunity to appear 
before you and I look forward to answering your questions. 
Thank you.
    Mr. Souder. Thank you very much for your testimony.
    [The prepared statement of Mr. Ziglar follows:]
    [GRAPHIC] [TIFF OMITTED] 81781.003
    
    [GRAPHIC] [TIFF OMITTED] 81781.004
    
    [GRAPHIC] [TIFF OMITTED] 81781.005
    
    [GRAPHIC] [TIFF OMITTED] 81781.006
    
    [GRAPHIC] [TIFF OMITTED] 81781.007
    
    [GRAPHIC] [TIFF OMITTED] 81781.008
    
    [GRAPHIC] [TIFF OMITTED] 81781.009
    
    [GRAPHIC] [TIFF OMITTED] 81781.010
    
    [GRAPHIC] [TIFF OMITTED] 81781.011
    
    [GRAPHIC] [TIFF OMITTED] 81781.012
    
    [GRAPHIC] [TIFF OMITTED] 81781.013
    
    Mr. Souder. Mr. Smith.

STATEMENT OF ROBERT M. SMITH, ASSISTANT COMMISSIONER, OFFICE OF 
        HUMAN RESOURCES MANAGEMENT, U.S. CUSTOMS SERVICE

    Mr. Smith. Chairman Souder, I am pleased to have this 
chance to appear before the subcommittee today. I was just 
informed that my statement is now cleared and can be made 
entered for the record.
    Mr. Souder. Oh, good.
    Mr. Smith. From a human resource perspective, the U.S. 
Customs Service has a number of unique characteristics that 
present challenges to recruitment, hiring and retention. 
Flexibility is the key to our hiring and staffing needs. We 
deploy personnel at over 300 ports of entry across the country, 
including border crossings, seaports and international 
airports. Many of these ports operate on a 24-hour-per-day, 7-
day-per-week schedule. We also station employees at U.S. 
Embassies and consulates throughout the world.
    Customs' frontline employees must be willing to work a 
variety of schedules under adverse and changing conditions, 
both physical and geographic. They are required to carry 
weapons and frequently find themselves in dangerous situations. 
Our pilots find themselves on missions that take them away from 
home for extended periods of time, working with the Southern 
Command overseas. They fly state-of-the-art aircraft, including 
the P-3 interdiction planes.
    This past year the Customs Service recruited, examined, 
hired and trained over 550 inspectors and canine officers, 38 
pilots, and additionally, we hired over 400 special agents, 
which was twice as many that we have hired in a 1-year period 
in almost a decade. Much of our hiring was achieved through the 
competitive staffing process that imposes various hiring 
requirements. Other hiring was accomplished through excepted 
appointments, which gives us some flexibility, but not totally.
    Customs Service has over 2,000 frontline Customs officers 
serving and protecting the American public. Our officers are 
experienced, with an average length of service of nearly 12 
years on the job. Many Custom employees serve in remote 
locations where there are limited, if any, medical facilities, 
roads, housing, schools, and even stores. We need to be able to 
retain these employees and provide them with the benefits that 
entice them to stay with the Customs Service.
    Customs also has a prominent role to play in 
counterterrorism. During the millennium alert it was a Customs 
inspector who apprehended a suspected terrorist during a 
routine border stop in Port Angeles, WA. Now, in the wake of 
the horrific terrorist attacks of September 11th, the Customs 
Service has been called upon to lend staff resources to many 
different areas. We are providing staff to serve as sky 
marshals. We have increased our presence through the temporary 
deployment of personnel to many border ports and airport 
locations. And we are now also in the planning stages to assist 
in providing security to the Salt Lake City Olympics later next 
year.
    In order for us to be able to respond to these situations, 
we need changes to laws and regulations that provide us with 
greater flexibility. The current personnel laws and regulations 
promulgated by the Office of Personnel Management do not 
provide that flexibility and inhibit us from staffing in a way 
to meet these demands. The administration's Managerial 
Flexibility Act proposal would assist us with regard to 
retention and recruitment in some areas.
    For the upcoming fiscal year the Customs Service is 
anticipating the need to hire 2,500 new employees in our 
frontline occupations. We already have 500 applicants ready to 
come on board and another thousand going through our pre-
employment processes now, but we still need to screen between 
15,000 and 20,000 applicants in order to meet our hiring needs. 
With your assistance in obtaining the right tools to meet our 
personnel needs, we feel we certainly will succeed in meeting 
our mission.
    Thank you for the opportunity to address you today, Mr. 
Chairman, and I, too, look forward to your questions.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Smith follows:]
    [GRAPHIC] [TIFF OMITTED] 81781.014
    
    [GRAPHIC] [TIFF OMITTED] 81781.015
    
    [GRAPHIC] [TIFF OMITTED] 81781.016
    
    Mr. Souder. Mr. Mead.

    STATEMENT OF GARY E. MEAD, ASSISTANT DIRECTOR, BUSINESS 
                SERVICES, U.S. MARSHALS SERVICE

    Mr. Mead. Thank you, Mr. Chairman. Not knowing exactly 
where we would be heading today, I also brought with me our 
Assistant Director for Human Resources, Miss Susan Smith, and 
our EEO officer, Lisa Dickinson.
    On behalf of the U.S. Marshal Service, thank you for the 
opportunity to appear here today. In 1789, President Washington 
began appointing the first U.S. Marshals; 212 years later, the 
tragic events of September 11th put to the test the Founding 
Fathers' vision of the Marshals Service. This vision was a 
Federal law enforcement agency capable of performing a wide 
variety of key law enforcement missions anywhere in the United 
States.
    Immediately following the terrorist attacks, deputy U.S. 
Marshals were called upon to provide assistance with the search 
and rescue efforts at the Pentagon and the World Trade Center. 
Within 48 hours the Marshals Service was involved in almost 
every aspect of our Nation's response. We coordinated and were 
an integral part of the Federal law enforcement presence at 18 
of our largest airports. Our Joint Prisoner and Alien 
Transportation System aircraft transported hundreds of Federal 
agents to assignments across the Nation. Deputy U.S. marshals 
assisted the FBI to locate and apprehend potential suspects. 
Our Electronic Surveillance Unit used sophisticated technology 
to locate possible survivors and the aircraft black boxes 
buried in the rubble of the World Trade Center. Deputy U.S. 
marshals also provided personnel security for the Director of 
FEMA and other Federal officials, and we were involved in other 
special activities of a classified nature.
    In addition to these missions, we continue to perform the 
Service's core responsibilities, specifically the security of 
the Federal judiciary. Security at all Federal courthouses was 
significantly increased. Within 3 days of the attack, our 
Nation's court operations had returned to normal except in the 
Southern and Eastern Districts of New York.
    The versatility demonstrated by the U.S. Marshals Service 
since September 11th is what the President and the Attorney 
General have come to expect and what the American people 
deserve. We were able to meet all challenges as a result of the 
Service's multiskilled, highly trained criminal investigators, 
who comprise the majority of our deputy U.S. marshal work 
force. However, this hearing could not be more timely. Although 
we are proud of our recent accomplishments, we are concerned 
about our future capabilities to respond as directed in this 
new war on terrorism.
    Approximately 2 years ago, the former administration of the 
Marshals Service suspended the hiring of new criminal 
investigators. Through attrition the number of criminal 
investigators was to be reduced by approximately 75 percent. 
They would be replaced by officers who would perform judicial 
security duties within the Federal courthouses. Fortunately, we 
had lost very few criminal investigators through attrition 
prior to September 11th. Consequently, we still had sufficient 
numbers of criminal investigators to complete the complex 
missions we were assigned.
    Whether it is the protection of judges, witnesses or 
Federal officials from terrorist threats, the apprehension of 
terrorist fugitives, the location and seizure of terrorist 
assets or the custody of prisoners accused of terrorist acts, 
the Marshals Service will become more involved with national 
security matters and classified missions than ever before.
    The apprehension of fugitives is a time-critical business. 
Fugitives know they are being hunted and are therefore 
constantly on the move. Terrorist fugitives will face an even 
greater urgency to move often and quickly. Any delay on the 
part of the Marshals Service to apprehend them will be the 
potential difference between a quick arrest and a terrorist 
remaining at large in the community. It is essential that we 
have adequate numbers of versatile criminal investigators to 
perform these complex missions.
    In closing, I want the subcommittee to know that the 
Marshals Service is very proud to serve this Nation and to be 
involved in the war on terrorism. Be assured we will continue 
to do everything within our power to help achieve victory. 
Thank you for the opportunity to appear before you today, and I 
would be happy to answer any questions you might have.
    [The prepared statement of Mr. Mead follows:]
    [GRAPHIC] [TIFF OMITTED] 81781.017
    
    [GRAPHIC] [TIFF OMITTED] 81781.018
    
    [GRAPHIC] [TIFF OMITTED] 81781.019
    
    [GRAPHIC] [TIFF OMITTED] 81781.020
    
    [GRAPHIC] [TIFF OMITTED] 81781.021
    
    Mr. Souder. Thank you all very much for your testimony. And 
let me say first, as a matter of empathy, as I was explaining 
earlier, I was a staffer on the House side for 6 years and the 
Senate for 4\1/2\. A measure of empathy as to how many 
committees and jurisdictions on both sides you will be 
testifying in front of, and whenever there is an issue this 
critical, everybody's going to focus on it.
    Let me outline a little bit what we are trying to do 
through this subcommittee, and I look forward to working with 
each of your agencies in focusing on this, and how we are going 
to work, which gives me the opportunity to kind of lay this out 
here.
    Some of the questions that you have addressed today and 
some of my questions clearly lie also with the Civil Service 
Subcommittee, both in authorizing an oversight in this 
committee. Now, interestingly, Congressman Weldon is on this 
subcommittee, who chairs Civil Service. His ranking member is 
Danny Davis, who is on this subcommittee, and Mr. Cummings and 
I are also both on Civil Service. So, fortunately, we can kind 
of cross-communicate inside that as we address these questions.
    In 1989, when I was with Senator Coates and back when the 
No. 1 issue was drugs, and the No. 2 issue was drugs, and the 
No. 3 issue was drugs, and we had our periodic big crusade on 
the drug war, it became evident to us early on that if we were 
going to do that, we were going to have some changes in the 
hiring, pay grade and other things, which we did in that 
period. And we did a number of pieces of legislation with it. 
It becomes a component of an outgrowth of when you focus on 
something to be able to get the type of people you need to do 
that. But it will overlap with a number of committees. What we 
are going to try to do here, for example, I have a number of 
senior Members, as you have looked at the list, like Mr. 
Gilman, and Mr. Mica is having a hearing simultaneous with this 
one on airports over in Transportation, which they also were 
trying to get him to cancel, so he may be sitting there alone 
also. But it is important we get these things in the record. 
And clearly, while we are going to focus here on border, we 
probably won't focus as much on air unless we get synchronized 
with Mr. Mica.
    I have talked to Congressman Shays who actually has 
antiterrorism jurisdiction in Government Reform. This committee 
was designed and our uniqueness is we were the only committee 
that could deal holistically with the antidrug question, and 
because of that they put the Justice Department here; in 
addition, anything in drugs. All of a sudden we had Justice. 
What we have learned in South America and Central America in 
particular, when you talk about narcotics, you talk about 
immigration. Well, Mr. Mica, when he chaired this, also had 
Commerce moved in because you can't talk about immigration and 
drugs and Customs without talking about Commerce. So we're 
probably the only committee in Congress that can cross a number 
of these jurisdictions and try to get into that.
    Even that said--and one other thing I want to say as a 
predicate. I have been active in the U.S.-Canada Exchange 
Group; a little less active, but supportive of the U.S.-Mexico 
group. But in the context of doing this series of border 
hearings which are starting at the end of this month in Vermont 
and Champlain, NY and Highgate Springs, VT, then we are going 
to do it in Mexico, in the McAllen region, Laredo and McAllen 
and Brownsville--we probably won't do a hearing, but visit 
there--and then some of the smaller posts, and then up in 
Washington State at Blaine.
    We have been working with the Canadian-U.S. group with Amo 
Houghton about this; and John LaFalce on the Canadian group; 
and George Nethercutt, who heads the Northern Border Caucus; 
with Jim Kolbe and Cass Ballenger on the U.S.-Mexico Caucus; 
with Henry Bonilla, who represents Laredo; with Congressman 
Hinojosa, who represents McAllen; with Congressman McHugh, who 
represents Champlain; with Congressman Sanders, who is on this 
subcommittee, who represents Highgate Springs; as well as I was 
just talking to Congressman Wolf again, who has part of the 
appropriations; and Congressman Istook, who are--in our 
understanding we are trying to make sure that we are a little 
on the same page here because your nightmare is you have got 
every committee of Congress coming up. And after Mr. Ziglar's 
briefing to a large group of Members proceeded to panic a lot 
of us on how we are going to deal with the borders and the 
number of staffing and how--which this hearing is partly an 
outgrowth of, and Congressman Wolf and I started talking on the 
floor about what we could do in the appropriations bill. We 
wound up with Congressman Weldon in it, and that led us into 
the whole question of the whole Civil Service, and there is 
some concern from OMB is if we bump some of the law enforcement 
agencies, what's going to happen to other Federal employees who 
are kind of off market, and these are broad questions.
    But I wanted to make you aware that we are trying to 
network; that this is going to be very hard, as you well know, 
being called up to the Hill constantly. But as we focus in this 
committee on the more narrow concerns, then our goal is to try 
to get to the authorizing and appropriating in a much more 
synchronized fashion than we have had before. Some of this may 
be yet this fall. Some may be in February when we come back at 
the beginning of the year if we have an emergency. Some may be 
the next cycle. And in sorting through in the questions, not 
everything will become apparent short term.
    I am very concerned, as are an increasing number of 
Members, that we are going to overreact, do some things that 
aren't necessarily wise for long-term planning. For example, if 
we don't have a vision, and 37 percent of the people who we 
hire as Border Patrol agents come from military, and 30 percent 
come from local law enforcement, and we double your size, what 
does that do to those other agencies if we haven't thought this 
out in a plan of attack?
    So let me start with a series of questions here that--and 
just go through them. First let me look at the recruitment 
questions. You each had, to differing degrees, parts of that. 
And we all know that--let me ask you this question right up 
front: Do you believe that with the existing size of your 
Department, you can meet the increasing terrorism demands and 
still do what you are required to do or we have asked you to do 
in the past in each of your areas on immigration, on narcotics, 
and Customs questions?
    Mr. Ziglar. Absolutely not, Mr. Chairman. We need more 
people. It is not a question--if I could make one point. On the 
military, we are not going in and recruiting people out the 
military. These are people that are retiring early, or they are 
leaving the military. We are not actively doing that. And the 
local law enforcement, they are people who are coming to us to 
apply because they see that as a career that they are 
interested in.
    I was also concerned, Mr. Chairman, that you said that I 
panicked the Members when I briefed you. I didn't mean to panic 
you. I meant to show you the dimensions of what we needed, and 
I was trying to get you to open your pocketbooks to us.
    Mr. Souder. Yes. And I understand. And ``panicked'' may be 
an overstatement. But let's say you got their attention in ways 
that previously the attention was lacking in the sense of 
immediately everybody's concerned; oh, we have got to seal off 
our borders, we don't want terrorists coming in. And then they 
learn, oh, you mean we have vacancies in the Border Patrol? 
What do you mean? I think you had made a statement that five 
people had retired the day before. You know, here we are trying 
to figure out how to hire people, and we can't fill, and we are 
losing people. If we can't retain those we have and fill the 
vacancies we have, how are we supposed to meet this need? And 
in that sense there was a sense of urgency that there hasn't 
been before.
    Mr. Ziglar. Actually, Mr. Chairman, you make a very good 
point that I would like to mention. What I had said about the 
five people was that five people the day before had gone to 
work for the sky marshals, and that emphasizes a point I was 
making in my opening statement, and that is that because of 
this disparity in the pay grades between our Border Patrol 
people and inspectors, and, for example, what the sky marshals 
will have as a journeyman level, there is really no reason for 
our people not to go and apply for those jobs, because they are 
to have better working conditions, and they are going to have 
higher pay. And these are people that we have trained very 
carefully, selected very carefully, so they are perfect 
targets. I come from the private sector--they are perfect 
target for our competitors, the sky marshals and the Customs 
Service, to go and try to recruit from us.
    It's our job to make our people like their jobs and to feel 
respected and treated with dignity, but if I don't have 
something to put on the table that lets them feed their family 
better, then they're going to go work someplace else, even if 
this is a more pleasant place for them to work.
    Mr. Souder. I want to make sure for the record, for Mr. 
Smith and Mr. Mead, do you believe that you can--if indeed we 
are at a minimum of 2 to 5 years of the intense pressures and 
the antiterrorism, that you can meet your increased demands 
without additional staff?
    Mr. Smith. No. Customs Service would need many more 
employees. We have our inspectors currently working 16 hours a 
day or more. So in order to facilitate trade, perform our 
enforcement functions, drug interdiction, and now our new 
mission, antiterrorism, we do need many more people.
    Mr. Souder. Mr. Mead.
    Mr. Mead. Mr. Chairman, we also have another complication 
in terms of answering some of these questions. We don't have a 
permanent Director just yet. Our Director is awaiting Senate 
confirmation, which could happen any day, and we know that this 
is one of the issues that he will address as soon as he gets on 
board.
    With that being said, we have got about 2,500 deputy 
marshals nationwide. That's our total law enforcement work 
force. When we were at our peak in terms of response to the 
terrorist attacks, we had between 500 and 600 of them, or more 
than 20 percent of our daily work force, devoted to extra 
special missions that had nothing do with our basic 
assignments. And obviously, if those type of missions became 
permanent, we could not sustain that level of, you know, extra 
support in other areas.
    And the other issue that faces us is if we were to acquire 
those type of complex missions, we would need to have the 
ability of these criminal investigators to perform them. And so 
we need our new Director to help us work through the issue or 
the decision of the prior administration to draw down the 
number of generalist criminal investigators and go with these 
more specialized employees who probably would not be suitable 
to do protection of dignitaries, complex criminal 
investigations and the like.
    So the short answer is if we continue those missions, yes, 
we probably would need more resources.
    Mr. Souder. Would each of you provide for the record--and 
maybe you can talk with the staff to figure what the logical 
trend line is, whether it is a 5-year trend line or a 10-year 
trend line of--and let's work through with staff what the best 
measures are--budget, number of agents, and then where you've 
had a bump-up, if there was a specific mission attached to that 
or a piece of legislation.
    For example, as we put new restrictions on immigration, or 
as we said this is an antidrug effort or an antiterrorism 
effort, because the fundamental question we have, and I've 
talked with DEA about this, too, is each agency is 
enthusiastically responding to any requests on antiterrorism 
and the new pressures. The question nobody really wants to 
answer is either you are being diverted from things that were 
also important to the United States, or you had excess 
capacity. And I believe that the data will show that we have 
been already squeezing most of the agencies given the mission. 
But the danger of each agency saying, look, we're doing this to 
respond to terrorism is the American people are not aware of 
what are we giving up as we go to that if we don't add. And I 
want to be able to illustrate that in the record and highlight 
that as we go through the debate.
    Clearly this committee with primary oversight over 
narcotics is very concerned that in chasing potential 
antiterrorist acts, that, as Congressman Cummings has said, the 
main chemical attacks on the United States right now are coming 
through illegal narcotics. The Taliban uses that as a funding 
source, and we don't want to see their heroin come into the 
United States, particularly if we put pressure on Colombian 
heroin eradication, and we need to have that. Also mentioned 
counterfeit goods and other things that come in through 
Customs. Immigration questions that lack of criminal 
investigators as this type of thing goes. But we need some kind 
of a baseline trend line, which I'm sure we will--if you don't 
have will serve well in the other debates.
    Let me first, a couple of general things that I--just quick 
things that popped into my head off of some of the testimony. 
Mr. Ziglar, in your testimony you said that many of the Border 
Patrol agents had to be bilingual. Is that generally on the 
Mexican border at this point?
    Mr. Ziglar. One of the requirements is that they either be 
proficient in Spanish, or that they have the ability to learn 
Spanish. So we give them some kind of test to understand. That 
prompted my comments that I'd never pass that test because I am 
linguistically impaired.
    Mr. Souder. The Vermont and Maine borders, is there French 
in the mix of that? Is that----
    Mr. Ziglar. You know, that's a good question. I don't know 
the answer to that question. We require Spanish for all of our 
officers. The way it works is that a rookie officer comes into 
the Border Patrol and goes to the Southwest border first. We 
tend to put our more mature, our older and more experienced 
officers up on the northern border because it's a different 
kind of mix up there. So they come in needing Spanish. But we 
don't have a requirement for French.
    Mr. Souder. I am going to ask a similar question, Mr. Smith 
and Mr. Mead, in just a second. Obviously we are not going to 
put somebody who can speak Farsi at every border. Do you 
foresee that you're going to have personnel who can field 
language questions that if somebody at a border has an 
emergency that they need to contact in to somebody to check, 
that you will be looking at that as a potential language 
requirement?
    Mr. Ziglar. That is an issue that we face every day. Of 
course, at our points of entry, people come in that don't speak 
English, and we have a variety of different ways that we, you 
know--bigger places we have lots of people that can speak 
different languages. They also can use a--telephonically they 
can get some assistance if they have to. But you definitely put 
your finger on an issue that we have to address, and that is 
more language skills at the point of contact with people.
    Mr. Souder. Can I ask the same question of Mr. Smith and 
Mr. Mead? Do you see this as a pressing need? Do you have the 
skills? Obviously every person isn't going to be able to speak 
5 to 10 languages, but the ability to respond if there is an 
emergency at the border, they are having trouble with 
communications. There are some questions. Is there electronic 
ability to get with somebody, or----
    Mr. Smith. Well, we do target recruitment of people with 
special language skills. Admittedly most of our officers have 
Spanish as their second language, if you will. There is one 
point, for Federal law enforcement officers, according to 
regulation, they are entitled to a foreign language bonus, but 
that is only for law enforcement officers. There is no bonus 
paid for non-law enforcement officers who speak languages that 
we would require.
    Mr. Souder. Could you explain in your agency who would be 
classified in law enforcement in that sense? Inspectors would 
not be.
    Mr. Smith. Or special agents, obviously, are included. And 
by special legislation our inspectors and canine officers are 
also included.
    Mr. Souder. So who in that system might have critical 
information at a point of contact who wouldn't be available for 
a language bonus?
    Mr. Smith. Import specialists, administrative people, 
entry.
    Mr. Souder. OK. So the data sources for the law enforcement 
personnel basically.
    Mr. Smith. Correct.
    Mr. Ziglar. Mr. Chairman, that makes a very important point 
that I made in my testimony in that our inspectors are not 
treated as Federal law enforcement agents, even though they 
carry guns and they have arrest powers and all of that sort of 
thing. They are not 6C Federal law enforcement agents, so we 
have that same--we have that problem with respect to our 
inspectors.
    Mr. Souder. So that's true of the entire INS, you can't get 
a language bonus?
    Mr. Ziglar. Inspectors. Border Patrol folks and 
investigators, intelligence officers are Federal law 
enforcement officers.
    Mr. Souder. So Border Patrol can, but the inspectors can't.
    Mr. Ziglar. The inspectors cannot.
    Mr. Souder. The foreign language bonus sounds like a very 
important thing to pursue. I guess it's only going to become 
more intense of a question rather than less intense.
    Mr. Mead.
    Mr. Mead. Yes, we actively recruit Spanish-speaking 
individuals to become deputies. We don't have enough deputies 
that are fluent, particularly along the Southwest border. We do 
provide some basic law enforcement Spanish training to as many 
of our employees as we can. It is not nearly as comprehensive 
as what the Border Patrol does. But we are concerned about the 
need for Middle Eastern languages because in addition to 
apprehending terrorist fugitives where that would be useful, we 
also contemplate that we are going to be getting people in the 
witness protection program that probably don't speak English 
and don't speak Spanish either, so we are going to need some 
different languages there. Just prisoners in our custody as a 
result of terrorist arrests may not speak English, or, you 
know, we would have the need to converse with them in another 
language. There's just a lot of areas where we are going to 
need a whole new skill set of languages that we have never even 
contemplated, so we are going to have to come up with some way 
of doing that.
    Mr. Souder. Let me ask you in another--the custody and 
witness protection is really interesting because what that 
presupposes, which I would assume each of you have had to work 
with, too, is that intelligence may come in. The person--in 
other words, it isn't just that the people who are, quote, bad 
guys are going to necessarily have in the current context of 
the Middle East a language question. The people who are the 
good guys, are giving us the tips, are also likely to be Middle 
Easterners who have seen the infiltration, and will we have the 
ability to handle those tips?
    We have so focused on the Mexico border and Spanish in this 
country that this is a phenomenon that is throwing us off a 
little bit, that the stuff that--the leak, if you look at the 
border, the leaks are on the Canadian border. Also the catches 
have been on the Canadian border. But the potential 
vulnerability there, it's--the country has pivoted in how 
they're thinking about it because we've always seen--looked 
south for the problem, not north. And the diversity of the 
country and the terrorist groups, right now it's Middle Eastern 
and al Qaeda, but, I mean--and the FARC would be more likely to 
be a Spanish language base. But if it's Hezbollah or Hamas or 
an Indonesian group, now that we have copycat terrorists, our 
language challenges and your challenges and immigration 
questions and custody questions and intelligence questions are 
immense compared to when we were predominantly focused on the 
Spanish language.
    Any other comments on----
    Mr. Smith. You're very correct, sir. You reminded me that 
the Customs Service employs several hundred intelligence 
research specialists, and they--a foreign language bonus pay 
for them to enable them to listen to the radio, read the 
newspapers, etc., would be very helpful.
    Mr. Souder. I also wondered, Mr. Smith, if you are able to 
elaborate at all when you said current personnel laws and 
regulations promulgated by OPM do not provide the flexibility.
    Mr. Smith. I have seen the parts of the administration's 
Managerial Flexibility Act, I haven't read it all, but there 
seems to be some things in there that will help us. The rule of 
three that they are proposing change is very important to us 
and gets away from rankings. The rule of three, just 
interestingly, I don't know if you are aware, that was enacted 
for the government in 1888, and hopefully now we will be able 
to change that law to give us a lot of flexibility there.
    Mr. Souder. Well, I am pretty concerned about--1888 is a 
long time ago without changing the law.
    Let me ask you a couple or three questions that you don't 
need to necessarily answer here, but if you could give me--I 
will give them to you for written.
    But, for example, how many new officers and inspectors 
would each of you need to meet the challenges you are being 
asked to face? That can be specific or approximate. And we will 
continue to produce that, because, quite frankly, every 30 days 
we make new demands and expectations because it is a--kind of a 
moving target, so to speak.
    Could you address a little bit--each of you alluded to 
experience and training--how rapidly new officers and 
inspectors in your agencies can be added?
    Realistically are we looking at a--I think one of you said 
that you had 1,000 in the pipeline, and you had just hired at 
Customs. Border Patrol was seeking out more. I think, Mr. 
Ziglar, in your testimony, the written that you had, it takes--
you had a phenomenal number of people who--16,000 candidates to 
get 1,000.
    Mr. Ziglar. 75,000 to get 2,000 Border Patrol.
    Mr. Souder. 75,000 to get 2,000.
    Could you give me a rough idea of, is your retirement--is 
the length of service declining at a rapid rate, or has that 
stayed relatively constant, or are you seeing that accelerate? 
Are people taking early retirement? You mentioned the five for 
the sky marshals. Has there been an accelerating pattern on 
that have you seen for a period of time?
    Mr. Ziglar. I don't know the answer to that question, but 
let me make one point. One of the problems about the 6C is that 
you have a 57-year--you have to be 57 years old, you are 
required to retire. That may have been a good policy at some 
point in the past, but being someone who is about to be 57 
soon, I--I don't think it is such a good idea anymore.
    But all of the joking aside about it, we have lots of 
Border Patrol agents, for example, that are reaching that age 
limit that are in great health. They do a good job. They are 
grown-ups. They know how to act, and we are forcing them out 
the door by virtue of that law.
    I think we ought to change the statute to allow for maybe a 
little bit later entry. If you--57 you are out, then you can be 
hired if you are older than 37, and yet, there are situations 
where military folks retire maybe at 41, 42. They are perfect 
for us. So we need to change that system, and that, I think, 
would slow down the retirement of the good people that we have, 
experienced people, in the system.
    One thing that Mr. Smith did not mention, that I will, 
because I think it is probably a slightly sensitive subject, 
and that is the notion of going to an excepted service format 
for hiring and promoting people. That is a much more flexible 
way of managing your business, and we certainly would like to 
have excepted service at the INS rather than going through the 
typical Civil Service so-called competitive process, which I 
don't find to be very competitive. That would give us better 
selection of people, hire them and promote people who really 
are performing well.
    I know it is a somewhat controversial subject, you know, 
that OPM hates it because it would put them out of a job, but I 
think it is something that we need to do to run this government 
much more like a business.
    Mr. Souder. I know you are trying to make a meeting, so I 
will let you go here. We are going to give you some written 
questions, and one of the things that I will promise to each of 
you is to get some placemarker legislation so that we can at 
least debate some of those subjects, and we will work with your 
legislative offices to do that. That will help force a debate. 
Maybe we can get it done this year, some may take longer, and 
some will get blocked, but at least we will force a discussion.
    But I have some additional questions.
    Mr. Ziglar. I just got a note that my hearing--my meeting 
on the Senate side has been canceled or rescheduled, so I am at 
your disposal.
    Mr. Souder. I will go another 10 or 15 minutes to try to 
get an idea of the type of things we are looking at.
    What is apparent is each of you have in the different posts 
in your agencies substantially different training periods, 
phase-in periods for different positions. But roughly what kind 
of training periods are we talking about in getting people into 
your agencies?
    Mr. Smith. New special agents go to school for 26 weeks, 
inspectors about 12 weeks, and K-9 officers, it is about 13 or 
14 weeks.
    Mr. Mead. Our criminal investigators go to school for 
approximately 16 weeks, and our more specialized law 
enforcement people go 10 weeks.
    Mr. Souder. And if I could ask each of you, Mr. Ziglar 
said--and this is what we want to try to do is not rob Peter to 
pay Paul. As we boost things, obviously the temptation becomes 
greater to go to one agency or another which is at least in law 
enforcement. There needs to be more equalization. But let me 
ask also in Customs and U.S. Marshals, where do your recruits 
generally come from?
    Mr. Smith. In the Customs Service they come from all over 
the country. We have a very aggressive recruitment strategy.
    Mr. Souder. How many of them come from local law 
enforcement would you say?
    Mr. Smith. This would be a guesstimate: 25 percent.
    Mr. Souder. What about retired military, people who have 
left the military?
    Mr. Smith. A lot of military. I would guess 30, 40 percent, 
not necessarily retired military, but veterans.
    Mr. Souder. Mr. Mead.
    Mr. Mead. We also get a fairly substantial number of people 
with prior law enforcement experience, and we do actively 
recruit at military separation centers. And laid on top of 
that, we periodically give a national exam that anyone can 
take, and even there we see sort of repeat applicants who have 
law enforcement and military experience.
    Mr. Souder. Mr. Ziglar, does this include--do you pick up 
people in Guard and Reserve? Did you include that in the 
military?
    Mr. Ziglar. You know, I don't know if that is inclusive.
    It is.
    Mr. Souder. Do you pick up people from private security as 
well? Private security operation, is that considered any 
valuable training?
    Mr. Smith. Customs Service does not target those people for 
hiring.
    Mr. Mead. A basic security post wouldn't qualify them to be 
deputy marshals.
    Mr. Ziglar. I mean, we will take applications from anyone. 
Obviously the weeding-out process is very aggressive. The 
percentage that would come from private security, I don't know, 
but I can get that number for you.
    Mr. Souder. I am partly curious because, for example, we 
look at the airport question. If we would Federalize all of 
that, which is predominately done by private security, I assume 
that we are going to have a lot of cross-rating, not to mention 
at the State and local law enforcement, depending on the 
logical ramp-up procedures. And I hope each of you will have 
the courage to tell House and Senate appropriators--everybody 
gets enthusiastic. It is kind of like if you don't take the 
budget opportunity in the year it is offered, you never get it.
    On the other hand, we have to have a logical ramp-up 
procedure here, or all we are going to be playing is musical 
chairs in our system, and part of this is a risk assessment 
strategy of where we need to have it.
    We have some more technical questions on the pay things. We 
have covered a lot of that. You have mentioned language 
bonuses, overtime. Do the Customs and the Marshals Services 
have overtime pressures on them right now like the Border 
Patrol is having?
    Mr. Smith. Overtime pressures? Congress several years ago 
enacted what we call our COBRA legislation, which is kind of 
our processing fees for passengers on conveyances, because our 
workload is so great now, we are spending more than we are 
taking in, and that is a big concern to us. Additionally, that 
COBRA law sunsets, I believe, next year. It also pays for 
almost 1,100 of our inspectors right now.
    Mr. Souder. So you aren't capped on whether you can pay 
overtime? You are capped because of the revenue that pays for 
it?
    Mr. Smith. Well, we, too, have a $30,000 cap.
    Mr. Souder. Are you near that?
    Mr. Smith. It can be waived for certain individuals for 
justifiable reasons.
    Mr. Souder. Do you have a waiver clause?
    Mr. Ziglar. No, sir, it is statutory. I have no authority 
to waive it.
    Mr. Souder. That is what you were referring to.
    Mr. Mead. We don't have a cap on overtime per se, but we 
are subject to the biweekly earning limitation that I think the 
Commissioner is talking about. When our people work 12-hour 
shifts, for example, 7 days a week, for more than, you know, a 
few weeks, they will exceed that maximum earning limitation for 
the pay period, and then they just don't get paid for hours 
that they have actually worked, and we do not have any 
authority to waive that.
    I can tell you that is a very serious morale issue, 
particularly in times of crisis where you have got people 
working very long hours, very long periods of time, gone away 
from their families. You add on the fact that they are not 
being paid, that is a morale issue. We don't have a way to deal 
with that presently.
    Mr. Souder. What do you mean they are not going to be paid? 
Because they are salary; therefore, they are not?
    Mr. Mead. There is a biweekly computation made, and if you 
were earning in that 2-week period what you would be allowed to 
earn when prorated out annually, you don't get paid for those 
hours that you worked in that pay period. Instead of being 
computed on an annual basis, so at the end of your time you 
would know where you stood, they actually compute it every 2 
weeks and prorate it as if you were going to work that amount.
    Mr. Souder. So because this is--I am getting into very 
technical Civil Service areas, which we will work through. But 
it is a morale question, potentially a retention question, not 
necessarily a recruitment pressure, because people wouldn't 
have been exposed to it yet.
    Do you have other methods--classification in law 
enforcement is one. Do you have other methods, or could other 
methods be done that wouldn't necessarily threaten a Civil 
Service structure in our agencies that could be done, for 
example, emergency bonuses, if we were declared in a state of 
emergency in law enforcement, that you could have an energy 
bonus, or does FEMA----
    Mr. Ziglar. I am not aware of an emergency bonus.
    Mr. Souder. I am not saying necessarily that there is one. 
Are there other things that we could look at that might relieve 
some of the pressure short term as a category that would give 
you management flexibility?
    Mr. Ziglar. I think, frankly, there are really two overtime 
cap issues. One is that the 2-week cycle cap, which is really 
causing a lot of our people to not be paid for work that they 
do, and never be paid for the work that they do, that is beyond 
a--that is a fairness issue. I mean, in the private sector the 
laws wouldn't allow the private sector to decide how much 
overtime they were going to pay, so why should we cap the 
Federal employees?
    And the basis for that cap is based on level 4--Executive 
level 4 pay. In other words, I am an Executive level 4. So 
someone could not make, on an annualized basis, more than--in a 
2-week period than I could make, even though they worked a 
whole lot more than I did. That is just fundamentally unfair.
    The other part is the $30,000 annual cap, which is--I mean, 
people just stop work when they reach that cap. That is one 
option. But that is, in a sense, their option, not our option. 
That is not so good to us, particularly in an emergency when we 
need those people to be there working, and yet we are not able 
to pay them. It is truly a fundamental fairness issue as well 
as a good management issue, and I think the Congress ought to 
try to deal with this 2-week cap as well as the other one.
    And Congress needs to trust managers to make good decisions 
about how they allocate the overtime and they manage that 
overtime. You know, if you wanted to give us these jobs and 
have us come do it, you have got to give us some flexibility to 
run the business, and to run it in a way that serves the 
taxpayers in a fiscally sound way and also serves the country 
from a security and a policy perspective.
    Mr. Souder. Also I am trying to think outside of the box a 
little bit. For example, I doubt if there is any provision in 
current law that if an agency is, say, 5 to 10 percent short in 
filing the current vacancies, that they are allowed to make 
some sort of a change or have--you had a recruitment 
supplement. Is there something that could be for a shortage 
supplement? Is there something that could be--if the ramp-up 
is--if we ask you to add a certain number of people in a short 
period of time that puts pressures on the system, could there--
once again, maybe a variation of recruitment, but an emergency 
provision that says, given the fact that this emergency 
classification, that--I am trying to think if there is another 
way that we can differentiate this; for example, from an 
extension office in the Agriculture Department.
    Because what I sense is that some of the resistance is 
coming because it is perceived as long-term potential pressure 
on the entire system because we have a short-term law 
enforcement pressure that could be from 2 to 5 years. But the 
fact is that Congress is going to put this pressure on because 
the American people are demanding to be safe, and, therefore, 
in demanding to be safe, we are running into ways--is there a 
way to address the particular type of crisis in front of us 
other than, in effect, diverting resources?
    Mr. Mead. Mr. Chairman, in general, I don't think, at least 
from the Marshals Service perspective, we have a shortage of 
applicants. The Federal law enforcement positions are very 
desirable jobs. Obviously we could be robbing State and local 
government, but I don't think that it is attracting the initial 
attention of applicants. Some of the things that the 
Commissioner and Mr. Smith have mentioned in terms of the 
process, how long it takes to get them through the process, are 
probably greater impediments to being able to ramp up quickly 
than getting the initial interest.
    We just announced our new test, and it was only open to the 
public, I think, for about 2\1/2\ to 3 weeks, only over the 
Internet, and no real aggressiveness out there promoting it. 
And we had almost 20,000 applicants. So, you know, it is not 
the initial interest, it is how long it takes you to run that.
    Mr. Souder. You are probably each going to have differences 
within, but you are also going to have qualified versus the 
relative qualifications, and also, depending what the economy 
is going to make, another----
    Mr. Ziglar. I have to say, and that is--we can get people, 
we can attract people to it, but the process is so burdened 
down with the bureaucratic rules. That is why I mentioned the 
excepted service as an alternative, as an alternative to select 
and bring them on quick and then promote them based upon how 
well they do their jobs.
    Mr. Souder. I will start to wind this up here. Let me ask 
you another question. This grows out of that. I and others are 
somewhat concerned about, particularly if you have worked in 
this area for some time, another danger of ramping up fast. 
Given the fact that there are pressures that slow us down and 
the pressures in adding lots of new agents in addition to 
qualified, I happen to believe, and many do, that the only way 
that we are going to have much impact on terrorism, on 
narcotics, on other types of targeted smuggling is you need 
tips, you need intelligence. Otherwise you are looking at a 
needle in a haystack.
    That is somewhat of a deterrence, looking for the needle in 
the haystack, but the truth is most of our busts come from a 
tip; that as we put more pressure on intelligence, as we look 
at the border, the fast pass or others, a screen to see whether 
there is any checking, whether it is at airports or Coast Guard 
or wherever it is, obviously it is dependent on the people 
inside being clean.
    Given the current pressures, are you taking any additional 
efforts, or what things do we need to do in the applicants that 
are coming in that--and the urgency to bring people on that we 
can have thorough background checks and studies to make sure 
our intelligence stays clean?
    This is like a layman's type of fear. I am afraid we are 
going to put these steel doors on the airplanes so we can't get 
to the pilot and then find out that the pilot is bad, and we 
can't get to him anymore.
    Mr. Ziglar. Mr. Chairman, the old adage that an ounce of 
prevention is worth a pound of cure is one I believe in. 
Certainly from our perspective, we are not about to lower our 
standards in terms of the people we take or not do the 
investigations.
    An example of what can happen is when the Metropolitan 
Police Department here in Washington a few years ago was in bad 
need of officers, just bad need of officers, they went out and 
they recruited people, and they didn't do the background 
checks, they didn't train them well, because they needed people 
on the street. As a result of that, we saw what happened for a 
period of time until they weeded out people who shouldn't have 
been in the force in the first place, and then it created a 
very bad situation for the Metropolitan Police, which is a fine 
police department.
    We are not going to let that happen at the INS, Border 
Patrol or any part of our enforcement operation. And I 
guarantee you, knowing the Customs and the Marshals, they can 
speak for themselves, I guarantee you they wouldn't let that 
happen either.
    Mr. Smith. Very correct, Commissioner. Those numbers of 
applicants that we have said we needed thousands, actually it 
is--for every 1 position we fill, we need to recruit or have 
applicants for about 20 to 25 to fill 1 position. They do go 
through extensive testing, extensive background investigations, 
the drug screening, medical exams, physical exams, and actually 
the processes that INS utilizes are virtually identical to 
Customs.
    Mr. Souder. I have been very rattled in the narcotics area 
about the compromising of intelligence after what happened in 
Mexico with their drug czar actually living in the apartment of 
somebody who was one of the cartel members, and we had shared 
our intelligence with him, and all of a sudden your entire 
network of information suppliers is gone.
    And the whole question that we are going to be dealing with 
in an upcoming hearing of RIS and EPIC, and as we broaden where 
the intelligence goes, there is more risk of intelligence being 
compromised.
    And I just want to make sure, and you all in your points of 
responsibility, that in our pressures to, say, hire a bunch of 
people, that you actually are even more rigid than you have 
been before in checking their status and background checks, 
because the worst thing is if people get inside the system, it 
will be in worse shape than we are now.
    Mr. Mead, did you want to----
    Mr. Mead. Yes. We think that we have a very good record in 
terms of ensuring the integrity of our work force, and there is 
no reason to change that. There is no reason to change the 
portions of the hiring process that deal with integrity, the 
background investigation, drug tests, credit checks, all of 
those things.
    They can be done in a reasonable period of time. It is some 
of the--frankly, more administrative requirements that we 
impose on ourselves as being part of the Civil Service that 
take the extensive amount of time. And regardless of what the 
hiring procedures are, we will not sacrifice the integrity 
portions of the process.
    Mr. Souder. Well, let me just close with this, and we will 
send you some additional questions. But one of the--and we may 
come back and revisit this again after we have actually been 
out to a number of the borders--I have been to San Ysidro a 
number of times, as well as Nogales and El Paso and crossed 
many times at the Canadian border--that we are not going out on 
these border hearings to do anything but try to figure out how 
to tackle the problem, going with no preconceived notion other 
than it is going to take more money.
    But my assumption is we are going to see different things 
at the different borders and the pressures that are needed from 
the different services. The type of things that we are going to 
be looking at are what types of technology are needed as 
supplements at the big border crossings, what at the smaller 
border crossings, what kind of personnel differences are there 
in--if you look at--because we have just been looking at this 
I-87, the Montreal corridor. I-87 is clearly going to need a 
little bit different than 89 going through Vermont, but in 
between there is another little border station, and there is a 
couple more.
    It is not clear that if you put--and if we put more 
pressure on the border crossing, that they aren't going to go 
500 yards east through the woods. How exactly is this going to 
work? Yet there is no question that we have been pulling our 
resources back toward the borders, that the quickest way to get 
people is to find them when they are coming in and trying to 
penetrate into the communities. So there is going to be 
tremendous pressure on this, and we are going to concentrate 
resources on it, but my sense is it is going to be different 
pressures in different places.
    Furthermore, not only do you have at Champlain on I-87 and 
at Highgate Springs on I-89 and a border crossing between, you 
have Lake Champlain coming up at two points in between where a 
person in a canoe or a small boat can come through. We need to 
be looking at this in a holistic way.
    We need to be looking at it from a trucking standpoint. 
Obviously at the Mexican border you can see the prescription 
drugs being--in addition to other illegal narcotics, being 
carried across and pharmacies lined up, that the challenges are 
immense. The responses are going to need to be diverse. And we 
look forward to plunging into that, and where we can do it with 
technology, where we might be able to do other things along the 
border in between the sites that, instead of an invisible 
border, are there going to be other technology ways that we can 
watch that and tap that in, because if we squeeze one place, 
just like narcotics, it is going to move elsewhere. Terrorism, 
illegal immigration and everything else is going to be similar.
    Any comments, Mr. Ziglar, that you want to make here?
    Mr. Ziglar. Mr. Chairman, you are absolutely right, that 
this is not an issue that can be solved by more people alone. 
We are going to have to start overseas, where we are granting 
visas to the consular stations. They need to have more 
information at their disposal so that they can identify people 
and not give them visas where the people are coming into this 
country under the visa waiver programs. The airlines need to 
start providing us information in advance of their boarding so 
that we can identify people who may be coming. The INS needs, 
the Department of State needs, the Customs Service needs, we 
need access to all of the intelligence information or at least 
some kind of signal that the person that we have got in front 
of us is a problem.
    That is one of the problems that we have had in this 
government is that agencies don't share information with each 
other, and so we may have someone in front of us that somebody 
has got some information about that we don't have.
    That is one issue. Another issue is use of technology as 
part of the web of protection. We can't have soldiers on the 
northern border arm to arm. We don't have enough people to do 
that. There are places that people can come over. We have to 
identify those potential corridors. We have got to beef up our 
security there. We have got to use remote surveillance, 
sensing, all of those sorts of things on the border so that at 
least we have some early warning system.
    We need to work with our neighbors to the north and to the 
south so that we, in effect, have a perimeter security approach 
to things, because if they are coming across our borders, they 
are coming through some other country, land borders. If we can 
work with our neighbors to keep people out of their country, 
they will not get to our country, and they will not create 
problems for them either.
    It is truly a holistic approach that is needed to deal with 
this, yet at the same time understanding that millions and 
millions and hundreds of millions of people that come to this 
country every year are not coming here to do us harm. They are 
coming here to visit the United States. They are coming here to 
spend money in this country. They are coming to visit family. 
They are an enormous number of low-risk travelers that we can 
identify and we can bring in this country on an expedited or 
facilitated basis.
    Commerce going across our borders is not commerce that is 
designed to do damage to us, it is designed to support our 
economy and their economy, and we have to develop good ways of 
identifying those things that need to be facilitated, and those 
things that are high risk to our country, identifying those and 
dealing with them.
    But it is truly a holistic issue, and to say that we can 
close our borders and that will fix it is not an answer. It 
will kill our economy, it will kill our freedom, and it will 
kill everything else in sight. So we have to be rational, and 
we have to do this in a studied approach, realizing that we 
need to get on with it, because the American people do feel a 
sense of insecurity.
    But I endorse what you said; that is, that we need to look 
at this in a very dispassionate, calm way, because if we do 
things that make us feel good but don't work, we are worse off 
than as if we did nothing.
    Mr. Souder. Before I close, I forgot there was one line of 
questioning I wanted to raise. This is not a primary function 
of this hearing, which was to focus just on the work force. 
But, particularly Mr. Ziglar and Mr. Smith, if you can, I know 
they are doing this at San Ysidro, what has historically kind 
of happened is that when we know someone at the border is 
looking for drugs, there is some movement of the people who are 
moving illegal immigrants, even in the lanes--to some degree 
the similar thing is if you are looking for immigrants, if 
there is a Customs person, because--and this is leading to a 
broader question, but at San Ysidro some of the agents are 
being cross-trained so that traditional people and Customs can 
do some immigration things. People who are trained to be the 
drug specialists can also look for other things. This has 
become huge in the antiterrorism question.
    My concern there on the narcotics committee is that we are 
going to be so busy looking for terrorists that we forget to 
look for the other things. If you can give us some information 
of which borders the cross-training is occurring, where we 
could accelerate those processes, because the No. 1 thing that 
is getting a head of steam among Members--and I would like to 
also get--if you want to give it for the record, or written, 
that--your opinion on this--there is talk about, well, we need 
one superagency to do this south border, we need one 
superagency for the north border, this jurisdictional question 
doesn't work. But the problem is your missions are different 
once they go away from the border.
    We have looked at this for many years. There may need to be 
a supervisor, but if we just get another homeland terrorism 
czar, drug czar, border czar, all of the additional agencies, 
we are getting so much bureaucracy. I am interested in your 
reaction to that, and can that, in effect, be headed off by 
more cross-training at the border where your agents, even if 
you are from diverse agencies, can help cover the other 
agencies' questions.
    Mr. Ziglar. That is a perfect question. I can tell you that 
based upon my extensive 2 months' experience in this job, that 
the Customs Service and the INS work together very 
cooperatively at the borders. We share jurisdiction at the 
ports of entry, and we cross-train our people, because there 
are times when Customs people are doing an INS function and 
vice versa. So we do cross-train our people, and they work 
together very well. In fact, many of the regulations at the 
ports of entry are--for example, on threat levels, those are 
the guidelines that the Customs Service has that we work with 
them on when we change a threat level.
    So it is a very cooperative relationship. Sometimes it is 
competitive when they want to hire our folks, but it is a very 
cooperative relationship, and we understand what we are trying 
to do there. What we need together are more resources so that 
we can really do that job and do that job effectively.
    Mr. Souder. Thank you.
    Mr. Smith. I can only second Commissioner Ziglar's 
response.
    Mr. Souder. Well, thank you, each of you, for coming today. 
I appreciate Mr. Ziglar taking his busy time to come. As 
Commissioner, we know this is very important. There is a lot of 
immigration pressures and a lot of different ways, and we 
appreciate you, now with the terrorism angle and the narcotics. 
And, Mr. Smith, we have worked with the Customs on lots of 
different issues, and sometimes the U.S. Marshals Service 
doesn't get included in these, and we try to do that wherever 
possible, because the other parts can't be executed if the 
Marshals Service isn't providing their critical support to 
that.
    I thank each of you for coming. I ask that Mr. Cummings's 
statement be inserted into the record, and we will look forward 
to hearing responses to our written questions as well as future 
hearings.
    With that the hearing stands adjourned.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]
[GRAPHIC] [TIFF OMITTED] 81781.022

[GRAPHIC] [TIFF OMITTED] 81781.023

[GRAPHIC] [TIFF OMITTED] 81781.024

[GRAPHIC] [TIFF OMITTED] 81781.025

[GRAPHIC] [TIFF OMITTED] 81781.026

[GRAPHIC] [TIFF OMITTED] 81781.027

[GRAPHIC] [TIFF OMITTED] 81781.028

[GRAPHIC] [TIFF OMITTED] 81781.029

[GRAPHIC] [TIFF OMITTED] 81781.030

[GRAPHIC] [TIFF OMITTED] 81781.031

[GRAPHIC] [TIFF OMITTED] 81781.032

[GRAPHIC] [TIFF OMITTED] 81781.033

[GRAPHIC] [TIFF OMITTED] 81781.034

[GRAPHIC] [TIFF OMITTED] 81781.035

[GRAPHIC] [TIFF OMITTED] 81781.036

[GRAPHIC] [TIFF OMITTED] 81781.037

[GRAPHIC] [TIFF OMITTED] 81781.038

[GRAPHIC] [TIFF OMITTED] 81781.039

[GRAPHIC] [TIFF OMITTED] 81781.040

[GRAPHIC] [TIFF OMITTED] 81781.041

[GRAPHIC] [TIFF OMITTED] 81781.042

[GRAPHIC] [TIFF OMITTED] 81781.043

[GRAPHIC] [TIFF OMITTED] 81781.044

[GRAPHIC] [TIFF OMITTED] 81781.045

[GRAPHIC] [TIFF OMITTED] 81781.046

[GRAPHIC] [TIFF OMITTED] 81781.047

[GRAPHIC] [TIFF OMITTED] 81781.048

[GRAPHIC] [TIFF OMITTED] 81781.049

[GRAPHIC] [TIFF OMITTED] 81781.050

[GRAPHIC] [TIFF OMITTED] 81781.051

[GRAPHIC] [TIFF OMITTED] 81781.052

[GRAPHIC] [TIFF OMITTED] 81781.053

[GRAPHIC] [TIFF OMITTED] 81781.054

[GRAPHIC] [TIFF OMITTED] 81781.055

[GRAPHIC] [TIFF OMITTED] 81781.056

[GRAPHIC] [TIFF OMITTED] 81781.057

[GRAPHIC] [TIFF OMITTED] 81781.058

[GRAPHIC] [TIFF OMITTED] 81781.059

[GRAPHIC] [TIFF OMITTED] 81781.060



</pre></body></html>
